                                          UNCLASSIFIED 





               UNITED STATES DEPARTMENT OF STATE 

           AND THE BROADCASTING BOARD OF GOVERNORS
	
	
                          OFFICE OF INSPECTOR GENERAL


AUD-ACF-14-32                              Office of Audits                                August 2014
	
	




  Compliance Followup Audit of Department of
   State Actions To Address Weaknesses in the
 Ownership, Award, Administration, and Transfer
     of Overseas Construction Funded by the
   President’s Emergency Plan for AIDS Relief




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of
State or the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior
authorization by the Inspector General. Public availability of the document will be determined by the
Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
criminal, civil, or administrative penalties.




                                          UNCLASSIFIED 

                                                              nited State , De partment of Stale
                                                             and the Broadca ting Board of Governors

                                                             Office of Inspector General




                                            PREFACE

       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 198 0,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This repo1t is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

        The recommendations therein have been developed on the basis of the best knowledge
available to OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendati ons wi ll result in more effective,
efficient, and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Norman P. Brown
                                              Assistant Inspector General
                                               for Audits
                                 UNCLASSIFIED 





Acronyms


CDC        Centers for Disease Control and Prevention
COP        Country Operation Plan
COR        contracting officer’s representative
FACTS      Foreign Assistance Coordination and Tracking System
FAR        Federal Acquisition Regulation
HHS        Department of Health and Human Services
MOU        Memorandum of Understanding
OBO        Bureau of Overseas Buildings Operations
OIG        Office of Inspector General
PEPFAR     President's Emergency Plan for AIDS Relief
RPSO       Regional Procurement Support Office
S/GAC      Office of the U.S. Global AIDS Coordinator
USG        U.S. Government




                                 UNCLASSIFIED 

                                                         UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                 Page 


Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................2 


Compliance Followup Audit Objectives ..........................................................................................4 


Compliance Follow-up Audit Results .............................................................................................4 

      Reissued One Recommendation. .........................................................................................4 

      Closed Four Recommendations ...........................................................................................7 

      Verified Two Closed Recommendations Had Corrected Original Deficiencies ...............10 


Improved Signage Would Highlight Philanthropic Contributions of the American People……. 12 


List of Recommendations ..............................................................................................................15 


Appendices 

      A. Scope and Methodology................................................................................................16 

      B. Facilities Constructed With PEPFAR Funds ................................................................19 

      C. Closed Recommendations Not Selected for Review.....................................................20 

      D. Office of the U.S. Global AIDS Coordinator Response...............................................22 



Major Contributors to This Report ................................................................................................22 





                                                         UNCLASSIFIED 

                                            UNCLASSIFIED 



                                         Executive Summary
         The President’s Emergency Plan for AIDS Relief1
(PEPFAR) is the cornerstone of U.S. Government (USG)                       OIG visited 11 PEPFAR-
efforts to combat global HIV/AIDS. A key component is                    funded medical facilities, 3
assisting affected countries in building medical                              in Tanzania and 8 in
laboratories, hospitals, blood banks, and care and treatment             Zambia, constructed during
centers. Since its inception in 2003, PEPFAR has                           2006–2012 and observed
constructed or renovated 1,452 medical facilities at a cost                that the medical facilities
of approximately $192 million. Reporting directly to the                    were in generally good
Secretary of State, the U.S. Global AIDS Coordinator                         condition. Also, these
(S/GAC) oversees the U.S. global response to HIV/AIDS                      facilities saw as many as
and directly approves all related USG activities. The                     50–100 patients a day who
Regional Procurement Support Office (RPSO) in Frankfurt,                 received HIV/AIDS testing,
Germany, the Department of State’s (Department) largest                   counseling, and treatment
overseas acquisitions office, began awarding construction                              care. 	
contracts for PEPFAR in 2003.

        In 2011, the Department’s Office of Inspector General (OIG) issued two audit reports that
identified weaknesses in the oversight of PEPFAR-funded overseas construction and the award
and administration of related construction contracts, including the lack of mechanisms to transfer
ownership of completed facilities to host governments.2 In these audit reports, OIG made nine
recommendations: four to S/GAC and five to RPSO. Over the last 3 years, OIG closed four of
the nine recommendations after verifying evidence provided by both S/GAC and RPSO that final
corrective actions had been completed.3 OIG considered the remaining five recommendations
open and resolved, pending further action.

        Due to the important role that construction of medical facilities have in the overall
PEPFAR effort, OIG’s Audit Compliance and Followup Division performed a compliance
followup audit to evaluate whether the Department had taken the necessary corrective actions to
improve the administration and oversight of PEPFAR construction contracts. The objectives of
the compliance followup audit were to (1) assess all open recommendations to determine
whether the Department had taken appropriate actions to address the problems and (2) assess two
recommendations previously closed to ensure that the Department’s actions corrected the
original deficiencies. Finally, during the course of the audit, we added a third objective
examining the signage affixed to PEPFAR-funded medical facilities to determine whether it
adequately identified the USG contribution and supported the Department’s diplomatic efforts.



1
  United States Leadership Against HIV/ADIS, Tuberculosis, and Malaria Act of 2003 (Pub. L. No. 108-25 § 102).
2
  Audit of Construction and Transfer of Ownership of the President's Emergency Plan for AIDS Relief (PEPFAR)
Overseas Construction Projects (AUD/IP-11-14, June 2011) and Improved Contract Documentation and
Monitoring by the Regional Procurement Support Office Are Needed for Construction Projects Associated With the
President’s Emergency Plan for AIDS Relief (PEPFAR) (AUD/IP-12-03, November 2011). and
3
  OIG closed the following four recommendations: AUD/IP-12-03 No. 1 and AUD/IP-11-14 Nos. 1, 2, and 4.

                                                      1


                                            UNCLASSIFIED 

                                             UNCLASSIFIED 



        Overall, OIG found that the Department had made significant progress in implementing
recommended corrective actions and in addressing the deficiencies identified in the
Department’s management of PEPFAR construction contracts. Specifically, OIG found that the
Department had completed corrective actions sufficient to close four of the five open
recommendations4 and verified that Department actions had corrected the original deficiencies
for the two selected closed recommendations.5 However, OIG found that actions taken in
response to the open recommendation on questioned contingency costs were not sufficient to
meet the intent of the recommendation and exposed a larger problem over funds management for
nine contracts and task orders and related obligations, totaling $5,213,502. As a result, OIG is
closing, modifying, and reissuing Recommendation 3 in report AUD/IP-12-03 as
Recommendation 1 in this report to address whether $5,213,502 identified as unliquidated
obligations should be deobligated.

       Finally, during its physical inspection of 14 PEPFAR-funded facilities, OIG was often
unable to determine what role, if any, the USG played in the financing and construction of the
healthcare facilities. PEPFAR signs affixed to the medical facilities were small and contained
opaque wording. Clearer signage indicating the philanthropic contribution of the American
people toward a critical public health concern could earn the USG valuable goodwill.

Management Comments

       In July 2014, OIG provided a draft of this report to and requested comments from S/GAC
and A/LM/AQM.

         On July 30, 2014, OIG received an informal response from A/LM/AQM stating that
A/LM/AQM agreed with the recommendation to determine whether the balance of $5.2 million
in obligations remaining on nine contracts and task orders was still necessary. A/LM/AQM
stated it would research the obligations to determine whether they should be deobligated.
However, A/LM/AQM did not indicate agreement or disagreement with the amount of
obligations OIG questioned; therefore, OIG considers Recommendation 1 unresolved. In its July
23, 2014, response (see Appendix D) to the draft report, S/GAC agreed with the recommendation
for better signage highlighting the American people’s contribution to combatting HIV/AIDS and
stated that it would issue additional guidance. OIG considers Recommendation 2 resolved,
pending further action. Management's responses and OIG's replies to those responses are
included after each recommendation.


                                               Background
        In 2003, PEPFAR was launched as the foundation and largest component of the U.S.
President’s Global Health Initiative, the goal of which is to save the greatest number of lives by
increasing and building upon what works and, then, supporting countries as they work to

4
    See AUD/IP-12-03 Nos. 2, 4, and 5 and AUD/IP-11-14 Nos. 3.
5
    See AUD/IP-12-03 No. 1 and AUD/IP-11-14 No. 4.

                                                       2


                                             UNCLASSIFIED 

                                           UNCLASSIFIED 


improve the health of their people. With a special focus on combating global HIV/AIDS,
PEPFAR is improving the health of women, newborns, and children. On July 30, 2008,
H.R. 55016 was signed into law by President George W. Bush amending and extending the
earlier Act by authorizing up to $48 billion over the next 5 years to combat global HIV/AIDS,
tuberculosis, and malaria. In December 2013, President Obama signed the PEPFAR
Stewardship and Oversight Act of 2013 that extends critical authorities and strengthens oversight
through 2018. As part of the PEPFAR program, the USG assists affected countries in building
and reconstructing laboratories, hospitals, blood banks, and care and treatment centers. An
example of a renovated medical facility using PEPFAR funds in Zambia is shown in Figure 1.




      Figure 1. Zambia National Service Nyimba Health Center (before and after) 

     (PEFPAR Zambia Photograph) 



        Between January 2010 and January 2011, OIG conducted a comprehensive audit
(resulting in two separate reports) to assess the Department’s role and actions related to the
award, administration, and transfer of PEPFAR-funded overseas construction projects. During
this audit, OIG uncovered numerous problems in managing the contracts including the
following:

        		 The Department did not have a complete and accurate inventory of PEPFAR
            construction contracts–neither contracts in process nor contracts completed.
        		 Processes were not in place for transferring completed projects to the host
            governments, and sustainment plans that detailed follow-on maintenance, operating
            costs, and responsibilities had not been completed.
        		 Many contract files were missing key documents indicating a lack of internal control
            over Department contract actions and increasing financial risk.
        		 The Department included contingency costs in contract awards in violation of the
            Federal Acquisition Regulation (FAR) contracting requirements. All PEPFAR
            contracts are Firm-fixed Price contracts and cost overruns are the responsibility of the
            contractor.
6
 Tom Lantos and Henry J. Hyde United States Global Leadership against HIV/AIDS, Tuberculosis and Malaria
Reauthorization Act of 2008.

                                                     3


                                           UNCLASSIFIED 

                                               UNCLASSIFIED 




        The results from this substantial audit effort were reported in 2011. The first report,
Audit of Construction and Transfer of Ownership of the President’s Emergency Plan for AIDS
Relief (PEPFAR) Overseas Construction Projects (June 2011) AUD/IP-11-14, focused on
S/GAC’s oversight of PEPFAR construction. The report contained four recommendations, of
which, three have been closed and one has been resolved, pending further action. The second
report, Improved Contract Documentation and Monitoring by the Regional Support Office Are
Needed for Construction Projects Associated With the President’s Emergency Plan for AIDS
Relief (PEPFAR) (November 2011) AUD/IP-12-03, focused on the Department’s award and
monitoring of PEPFAR construction contracts. This report contained five recommendations, of
which, one has been closed and four have been resolved, pending further action.

        OIG considers a recommendation “unresolved,” “resolved,” or “closed” based on the
actions that the Department has taken or plans to take with respect to the recommendation.7 An
unresolved recommendation is one for which the Department has neither taken action nor stated
how it plans to implement the recommendation. A resolved recommendation is one for which
the Department has agreed to implement the recommendation or one in which the Department
has begun, but not yet completed, actions to fully implement the recommendation. A closed
recommendation is one for which the Department has completed actions necessary to implement
the recommendation and OIG has determined that no additional action is required.

                             Compliance Followup Audit Objectives
        The objectives of this compliance followup audit were to (1) assess all open
recommendations to determine whether the Department had taken appropriate actions to address
the problems and (2) assess selected recommendations previously closed to ensure that the
Department’s actions corrected the original deficiencies. Finally, during the course of the audit,
we added a third objective examining the signage affixed to PEPFAR-funded medical facilities
to determine whether it adequately identified the USG contribution and supported the
Department’s diplomatic efforts.

                                Compliance Followup Audit Results
       Overall, OIG found that the Department made significant progress in implementing
recommended corrective actions and in addressing deficiencies identified in the Department’s
management of PEPFAR construction contracts. However, OIG is reissuing one
recommendation to address fund management problems with old procurement actions. OIG
found that the actions taken in response to the open recommendation on questioned contingency

7
  Office of Management and Budget Circular A-50, Revised, “Audit Followup,” Sept. 29, 1982. The circular
requires that Federal agencies “assure the prompt and proper resolution and implementation of audit
recommendations” made by Inspectors General, other executive branch audit organizations, the Government
Accountability Office, and non-Federal auditors. Secs.1, 5, 8a(2), and 8a(3) of the circular further require that
agencies (1) resolve recommendations within a maximum of 6 months after the issuance of a final report; (2)
implement corrective actions as rapidly as possible; and (3) specify criteria for proper resolution and corrective
actions that provide for written plans for corrective actions with specified action dates, where appropriate.

                                                           4


                                               UNCLASSIFIED 

                                              UNCLASSIFIED 



costs were not sufficient to meet the intent of the recommendation and exposed a larger problem
over funds management for the nine contracts and task orders and related obligations, totaling
approximately $5.2 million.

Reissued One Recommendation

        OIG is closing Recommendation 3 from report AUD/IP-12-03 and modifying and
reissuing it as Recommendation 1 in this report to address whether $5,213,502 in unliquidated
obligations should be deobligated.

Recommendation 3 from Audit Report AUD/IP-12-03. OIG recommended that the Regional
Procurement Support Office in Frankfurt, Germany, review existing PEPFAR construction
contracts and reclaim any contingency costs inappropriately included in contracts as practicable.
(Note: This recommendation was resolved at report issuance based on RPSO’s response to the
draft report.)

        Background: In audit report AUD/IP-12-03, OIG found that contingency costs of about
$2,126,148 were inappropriately included in eight contracts and 30 task orders valued at
$29,926,033. Because these contingency costs were part of the overall value of the contract, the
funds could be spent without pre-approval from the Department. In a response to the final
report,8 RPSO identified additional contingency costs increasing the total contingency costs for
corrective action to $2,240,463.

        Compliance Followup Audit Results: OIG found that RPSO had taken sufficient
corrective action for $1,676,875 of the $2,240,463, but RPSO had not sufficiently addressed the
remaining $563,588. Specifically, RPSO had disallowed $1,020,946 (deobligated the funds or
converted for re-use) and allowed $655,929. However, a RPSO official stated that they could
not make a determination on the remaining $563,588 of contingency costs from nine contracts
and task orders because they did not have sufficient records to make a determination.

        Because RPSO did not have sufficient records for these nine procurements, OIG obtained
their related accounting records and found a larger problem with funds management for these
older procurements. The Department’s accounting records showed that neither the contingencies
nor the obligations9 associated with the nine contracts and task orders had been fully deobligated
or liquidated even though the procurements were awarded in FYs 2007–2009. In fact, as shown
in Table 1, $5,335,035 remained of the original $9,673,170 obligated for these nine
procurements. Since the Department is responsible for maintaining effective control over its
finances and spending the funds it receives in accordance with Federal law,10 RPSO needs to
determine the validity of these outstanding obligations.


8
  RPSO Memorandum and attachment dated October 16, 2013. 

9
  Obligations are amounts of orders placed, contracts awarded, services rendered, and similar transactions during a 

given period that will require payment. (AUD-FM-14-21, page 2) 

10
   OMB Circular A-123, Management’s Responsibility for Internal Control,issued under the authority of the Federal 

Managers' Financial Integrity Act of 1982 as codified in 31 U.S.C. § 3512. 


                                                         5


                                              UNCLASSIFIED 

                                                 UNCLASSIFIED


Table 1. Procurement Actions With Remaining Balances
Contract/                                                                        Obligated                  Remaining
Task Order                                Fund                                     Amount                       Balance
SGE50008F0349                             19___X10310000                          $300,615                    $300,615
                                          19___X10300000                           $18,000                      $18,000
SGE50008F0347
                                          19___X10310000                          $172,011                    $172,011
SGE50008F0140                             19___X10300000                          $269,455                    $269,455
SGE50008F0031                             19___X10300000                          $779,087                    $779,087
SGE50009F0005                             19___X10300000                        $1,464,762                   $1,464,762
SGE50008F0093                             19___X10300000                           $43,416                      $43,416
                                          7519_X10300001                          $172,820                    $172,820
                                          75__8909430000                          $121,533                    $121,533
SGE50007F1129
                                          19___X10310000                          $176,545                    $176,545
                                          75__7809430000                           $33,654                         -
SGE50008C0051                             19___X10300000                        $1,678,637                   $1,678,637
                                          19___X10300000                        $2,649,800                      $69,658
SGE50009C0013
                                          19___X10310000                        $1,792,835                      $68,496
Total                                                                           $9,673,170                   $5,335,035
Source: Generated by OIG from data provided by Department financial management systems, including financial data obtained
from Embassy Maputo.


        Of the $5,335,035, $121,533 was funded from 2008 appropriations and has expired.11
The remaining $5,213,502 was funded from no-year appropriations12 and is available without a
fiscal year limitation for re-use and re-obligation.

       Status: With this report, OIG is closing, modifying, and reissuing AUD/IP-12-03
Recommendation 3 as Recommendation 1 in this report to address whether the balance of
$5,213,502 in obligations remaining on the nine contracts and task orders identified are still
necessary and, if not, deobligate them.

         Recommendation 1. OIG recommends that the Regional Procurement Support Office in
         Frankfurt, Germany, determine whether the balance of $5,213,502 in obligations
         remaining on the nine contracts and task orders identified are still necessary and, if not,
         deobligate them.

         Management Response: A/LM/AQM agreed with this recommendation, stating that it
         would research the outstanding obligations to determine whether they should be
         deobligated.

         OIG Reply: OIG considers this recommendation unresolved. The A/LM/AQM
         response was not satisfactory to resolve the recommendation because management did not
         provide a decision with respect to the validity of the $5,213,502 in obligations identified by

11
   Both multi-year and single-year appropriations have an additional 5-year period beyond the original period during
which the “expired” funds remain available for certain types of adjustments to obligations. At the end of the 5-year
period, the appropriation is closed and any remaining balance, whether obligated or unobligated, is “canceled” and
the remaining funds are deposited in the Treasury. (AUD-FM-14-21, page 2)  
12
   Appropriations are classified as no-year, multi-year, and single-year. No-year appropriations are available for
obligating and expending without a fiscal year limitation. (AUD-FM-14-21, page 2)

                                                            6


                                                 UNCLASSIFIED 

                                       UNCLASSIFIED 


       OIG. This recommendation can be resolved when A/LM/AQM provides a determination
       (dollar value agreed to or not agreed to) on the validity of $5,213,502 in unliquidated
       obligations. This recommendation can be closed when OIG reviews and accepts
       documentation showing that A/LM/AQM has taken action to deobligate those obligations
       determined to be unnecessary.

Closed Four Recommendations

        OIG found that the Department had completed corrective actions sufficient to close four
of the five other open recommendations.

Recommendation 2 from Audit Report AUD/IP-12-03. OIG recommends that the Regional
Procurement Support Office in Frankfurt, Germany, issue instructions for its personnel to stop
the practice of including contingency funds in PEPFAR construction contracts unless identified
contingencies arise from presently known and existing conditions, as described in section
31.205-7 of the Federal Acquisition Regulation. (Note: This recommendation was resolved at
report issuance based on RPSO’s response to the draft report.)

         Compliance Followup Audit Results: In September 2013, RPSO issued instructions to
all of its contract administration personnel—contract specialists, contracting officer’s
representatives (CORs), and architect and engineering contractors—to stop the practice of
including contingency funds in PEPFAR construction contracts unless identified contingencies
arise from presently known and existing conditions (per FAR 31.205-7). The guidance states,
“Contingencies shall not be used in solicitations and contracts in accordance with the
requirements of the FAR…the US Government is not required to adjust the price for their failure
to review all the material provided. The responsibility is on the contractor to ensure they have as
complete and accurate a proposal as possible.”

       Additionally, OIG found that RSPO had not included contingency costs in nine new
contracts issued in Fiscal Years 2012 and 2013. Based upon the guidance issued by RPSO and
OIG’s verification that new construction contracts did not contain contingency costs, OIG
determined that the intent of the recommendation was met.

       Status: Closed.

Recommendation 4 from Audit Report AUD/IP-12-03. OIG recommends that the Regional
Procurement Support Office in Frankfurt, Germany, issue instructions for its procurement staff to
fully document contract monitoring to assess whether contractor performance is satisfactory.
(Note: This recommendation was resolved at report issuance based on RPSO’s response to the
draft report.)

       Compliance Followup Audit Results: OIG verified that RPSO issued guidance to its
contracting staff—contract specialists, CORs, and architect and engineering contractor—on




                                                 7


                                       UNCLASSIFIED 

                                              UNCLASSIFIED 



maintaining adequate contract monitoring files, including steps to improve monitoring.13 This
guidance reminds all CORs of the necessary documentation for monitoring contracts and its
importance to the success of the project.

         Additionally, during our site visits to Tanzania and Zambia, OIG found evidence of
contract monitoring during construction in the CORs’ project files. For example, in Tanzania,
three newly awarded construction contract project files contained weekly progress reports
conducted by the clerk of work,14 site visit reports, and evidence of voucher payment review by
the COR. The weekly clerk of work reports and site visit reports were accompanied by pictures
documenting the progress of the construction project. In Zambia, six newly awarded contract
files also contained evidence of COR site visits that documented the progress of the construction
using a monitoring form that tracked the financial and physical progress of the buildings, general
comments on the quality of the workmanship, adherence to work program, quality of materials,
number of workers on sites, as well as evidence of invoice voucher review by the COR. Based
on the guidance provided and evidence in COR project files, OIG determined that RPSO’s
actions met the intent of recommendation.

        Status: Closed.

Recommendation 5 from Audit Report AUD/IP-12-03. OIG recommends that the Regional
Procurement Support Office in Frankfurt, Germany, require posts with substantial planned costs
for PEPFAR construction projects to obtain a technical advisor with construction expertise for
monitoring construction contracts. (Note: This recommendation was resolved at report issuance
based on RPSO’s response to the draft report.)

       Compliance Followup Audit Results: RPSO’s September 2013 guidance15 to its
contracting specialists, CORs, and architect & engineer (A&E) contractors also recommended
that PEPFAR agencies consider hiring a technically experienced engineer or architect to serve as
COR (or advisor to the COR) on complex, large-value construction projects.

        In Tanzania and Zambia, OIG found that individuals with construction expertise and
construction contract monitoring experience had been assigned to the PEPFAR country teams.
In Tanzania, an infrastructure advisor, with prior engineering experience, was hired and served
as a consultant to the COR on all issues related to construction, such as conducting site visits to
monitor projects and attending meetings with contracted architect/engineer technical16 advisors
and construction contractors. In Zambia, an individual that serves as the COR is also a trained

13
   Guidance on Maintaining Adequate Files on Contract Monitoring and Methods to Improve Monitoring as Applied
	
	
to Construction Projects In Support of the President's Emergency Plan For AIDS Relief (PEPFAR) Program. 

September 2013. 

14
   Clerk of work is one of the engineers who are on-site daily during the construction process from one of the four 

architectural firms PEPFAR Tanzania hired to monitor its infrastructure constructions. 

15
   “Guidance on Maintaining Adequate Files on Contract Monitoring and Methods to Improve Monitoring as
	
Applied to Construction Projects In Support of the President's Emergency Plan For AIDS Relief (PEPFAR)
	
	
Program,” September 2013. 

16
   Tanzania PEPFAR has contracts with four local Architect/Engineering firms to provide day-to-day monitoring of 

the construction/renovation projects and oversight of the building contractors. 


                                                         8


                                              UNCLASSIFIED 

                                      UNCLASSIFIED 



civil engineer with 29 years of experience working in the construction industry. He has
experience in designing infrastructure projects; quantifying materials and labor requirements and
costs; preparing Bills of Quantities; managing projects; preparing project evaluations including
final accounts and contract management, among other skills. He has served as the COR for
PEPFAR construction projects in Zambia for approximately 7 years. Figure 2 is an example of
an on-going construction project of a medical training center that the COR and the infrastructure
advisor are responsible for monitoring.




      Figure 2. On-going Construction Project of the Mkomandio Training Center in Masasi,
      Tanzania. (OIG photograph)

     Based on the guidance provided and the expertise found at post, OIG determined that
RPSO met the intent of recommendation.

       Status: Closed.

Recommendation 3 from Audit Report AUD/IP-11-14. OIG recommends that the Office of
the U.S. Global AIDS Coordinator appoint a senior-level official who has the requisite
experience in construction and the authority to make decisions related to PEPFAR overseas
construction projects and who will report directly to the U.S. Global AIDS Coordinator. (Note:
This recommendation was resolved at report issuance based on S/GAC’s response to the draft
report.)

        Compliance Followup Audit Results: S/GAC officials stated that they had not
appointed a senior-level official because such a position did not match their staffing goals and
because construction was only a small portion of their mission. However, S/GAC officials stated
that they had considered several alternatives to implement OIG’s recommendation and had
decided on collaboration with OBO. Starting in FY 2012, S/GAC and OBO entered into a


                                                9


                                      UNCLASSIFIED 

                                             UNCLASSIFIED 



partnership whereby OBO engineering/construction staff with building experience review
participating countries’ annual PEPFAR country operational plans (COP) proposed construction
projects to determine the success of the projects. Although this is not a senior-level appointment
with construction experience, OIG believes the partnership between S/GAC and OBO meets the
intent of the recommendation.

        Status: Closed.

Verified Two Closed Recommendations Had Corrected Original Deficiencies

        OIG verified that the Department’s actions corrected the original deficiencies for two
selected closed recommendations that directly impacted the construction program. Two
previously closed recommendations that were not reviewed as part of this audit as they addressed
issues not directly related to building construction (see Appendix C).

Recommendation 1 from Audit Report AUD/IP-12-03. OIG recommends that the Regional
Procurement Support Office in Frankfurt, Germany, issue instructions for its procurement staff to
review active PEPFAR construction contract files to determine whether required contract award
actions for PEPFAR construction contracts were properly performed and documented, including
obtaining an Independent Government Cost Estimate, publicizing contract solicitations, and
delegating a contracting officer’s representative. If documentation supporting any of these
actions is found, it should be included in the respective file. (Note: This recommendation was
closed at report issuance based on RPSO’s actions and response to the draft report.)

       Compliance Followup Audit Results: OIG found that RPSO had taken several
additional corrective actions since the final report had been issued. For instance, in September
2013, RPSO issued Guidance on Maintaining Adequate Files on Contract Monitoring and
Methods to Improve Monitoring as Applied to Construction Projects In Support of the
President’s Emergency Plan For AIDS Relief (PEPFAR) Program outlining important contract
award actions that need to be documented. All staff reviewed and signed the guidance
memorandum acknowledging receipt of the guidance.

         Also, OIG reviewed and found nine new contract files17 (2012–2013) for construction
projects in Tanzania and Zambia to be well-organized. Specifically, the nine contract files
contained key documents, including Independent Government Cost Estimates, published contract
solicitations, and COR delegation letters. The RPSO files and the country PEPFAR files also
included inspection reports, technical progress and financial reports, site visits, and evidence that
voucher reviews had been conducted. Based on the guidance provided and results of the contract
file review, OIG determined that RPSO actions met the intent of recommendation and corrected
the original deficiency.

        Status: Closed.

17
 Of the nine contracts, three were task orders that were awarded in 2012-2013 from contracts originally awarded in
FY 2009.

                                                       10 


                                             UNCLASSIFIED 

                                             UNCLASSIFIED 



Recommendation 4 from Audit Report AUD/IP-11-14. OIG recommends that the Office of
the U.S. Global AIDS Coordinator establish guidance that clearly describes procedures to be
followed by U.S. Government agencies involved with PEPFAR construction projects, including
the requisitioning of PEPFAR funds, accounting for PEPFAR properties (after construction and
before transfer to the host governments), and transferring property to the host government.
(Note: This recommendation was closed January 17, 2013 based on guidance issued by S/GAC.)

        Compliance Followup Audit Results: During the compliance process, OIG verified
S/GAC established guidance for USG agencies involved with PEPFAR construction projects,
including the requisitioning of PEPFAR funds, accounting for PEPFAR properties, and
transferring property to the host government. Beginning in FY 2012, S/GAC implemented new
COP guidance for countries requesting assistance for HIV/AIDS construction and renovation
projects. The guidance states, among other things, that PEPFAR teams should carefully evaluate
the appropriateness of using USG assistance against other available options; that PEPFAR
construction/renovation investments must be reported within the Foreign Assistance
Coordination and Tracking System (FACTS) database;18 and that all construction/renovation
projects must conclude with a Memorandum of Understanding (MOU) with the host
government. The goal of the MOU is to facilitate planning and tracking of projects and to
establish appropriate host country responsibilities for facilities following the transfer.

         Additionally, during this audit, OIG found noticeable planned and on-going
improvements in transfer of health facilities to the host governments in Tanzania and Zambia. In
Tanzania, the PEPFAR team was in the process of finalizing a MOU between the Department
and the Tanzanian Ministry of Health to formalize the transfer process as required by the new
COP guidance. The MOU has a section on Responsibilities Regarding PEPFAR Facilities that
discusses, among other things, the purpose of the facility and its intended use and the Ministry of
Health’s responsibility to maintain the property in good condition at its own expense. In
Zambia, the PEPFAR team had an even more formalized transfer process. There is a 1-year
defect liability period, in which if any issues arise, the building contractor is obligated to fix the
problem. Once that liability period is complete, the facility is transferred using a
“Handover/Acceptance Form” that details the project name, property address, nature of the
facility, date the defects liability period expires, and terms of acceptance. By signing the form,
the Zambian Ministry of Defense is agreeing to accept full responsibility for the facility,
including any claims and liabilities. The facility will only be used for HIV/AIDS services and
related health care services and the property will be maintained in good condition. This
handover form is signed by a Zambian Defense official and the U.S. Embassy.

         Finally, OIG observed that 11 PEPFAR-funded facilities constructed in FYs 2006–2012
were being well maintained and utilized (3 in Tanzania and 8 in Zambia). (See Appendix B for
list of facilities constructed between 2006 and 2012 that the OIG team inspected.) Although the

18
  Starting in FY 2012, S/GAC began requiring country teams to monitor and report on each facility constructed or
renovated and subsequently transferred to the host country. The OIG audit team was able to verify the existence of
this information which is entered and maintained within FACTS database. S/GAC is currently migrating previously
built construction and renovation data (2004-2011) into the FACTS database.


                                                       11 


                                             UNCLASSIFIED 

                                        UNCLASSIFIED 



team observed instances of minor cosmetic issues, such as facilities needing a fresh coat of paint,
doors needing to be re-stained, patching up damages done to walls when things were moved or
installed, OIG did not observe noticeable deterioration of the structures visited. During our site
visits, all of the medical facilities were busy with patient activity and the team was told by host
government medical officers that it was common for 50–100 patients a day to receive HIV/AIDS
testing, counseling, and treatment care.

       Status: Closed.

                  Improved Signage Would Highlight Philanthropic 

                       Contributions of the American People 


        U.S. global health investments have led to worldwide progress against HIV/AIDS,
tuberculosis, malaria, smallpox, and polio. Better health abroad reduces the risk of instability and
enhances our national security. In Tanzania and Zambia, HIV/AIDS spending, according to the
embassies’ reporting, represents the vast majority of their bilateral assistance contribution.
Tanzania’s health programs account for nearly two-thirds of the embassy’s considerable annual
bilateral assistance, and two-thirds of its health funding is programmed through PEPFAR. In
Zambia, 92 percent of the embassy’s health support budget of $364 million (more than $335
million annually) is devoted to HIV/AIDS, tuberculosis, and malaria support and prevention.
Overall, within global HIV/AIDS health contributions, USG funding represents the largest share
of external donor funding.

        During our visit of 14 PEPFAR-constructed facilities in Tanzania and Zambia, OIG
observed that it was often very difficult to determine what, if any role, the USG played in the
financing and construction of the healthcare facilities. Figures 3–5 show examples of the limited
size and opaque messaging of PEPFAR signage affixed to embassy constructed facilities.




            Figure 3. Plaque at the National Headquarters and Zonal Blood Bank Transfusion
            Center – Ilala District, Dar es Salaam, Tanzania. The plaque states: “This building
            was opened jointly by Hon. David H, Mwakyusa (MP) Minister of Health and Social
            Welfare United Republic of Tanzania and His Excellency Michael L. Retzer
            Ambassador United States of America on June 8, 2006.” (OIG Photograph)

                                                12 


                                        UNCLASSIFIED 

                                       UNCLASSIFIED 




         Figure 3 is typical of many plaques displayed at U.S.-constructed facilities at the
inauguration ceremonies. Rather than highlighting the role of the senior embassy attending
official, OIG believes it would be more effective to emphasize the facility is a contribution from
the American people. Generally, in Zambia, the language on the signs clearly states that the
American people funded the facility; however, the placement of these signs had limited public
visibility, as shown in Figure 5.




            Figure 4. A 6” x 6” decal affixed to an outer door at the Tandale Care and Treatment
            Clinic, Kinondoni District, Dar es Salaam, Tanzania, states, “Gift from the American
            People.” (OIG Photograph)




            Figure 5. Two signs at the tuberculosis ward at Livingstone General Hospital,
            Livingstone, Zambia. While the first exterior sign clearly shows that the American
            people funded the facility, the second interior plaque was located on a side hallway
            with limited public access. (OIG Photograph)




                                                13 


                                       UNCLASSIFIED 

                                             UNCLASSIFIED 





              Figure 6. A Zambian Defense Force’s HIV/AIDS Secretariat Office, Lusaka,
              Zambia, sign states, “Zambians and Americans in Partnership to Fight HIV/AIDS.”
              (OIG Photograph)


This Zambian PEPFAR sign, which was prominently posted on the outside of the Secretariat
office building represents a good example of how to showcase the U.S. Government’s significant
HIV/AIDS public health contribution.

Conclusion

        Clearer signage indicating the philanthropic contribution of the American people,
combined with a more assertive public health diplomacy posture, may have foreign policy
benefits, earning the United States goodwill. Better signage, including the use of local
languages,19 would support the Department’s use of “Smart Power” to further the U.S. foreign
policy goal of “strengthening our position of global leadership to protect the health of our planet
and expand human dignity and opportunity.”20

        Recommendation 2. OIG recommends that S/GAC create standard signage for all
        PEPFAR-funded facilities to better highlight and display the American people’s
        contribution towards efforts to globally combat HIV/AIDS (including text, size, and
        placement).

        Management Response: S/GAC agreed with the recommendation, stating that it intends
        to issue additional guidance on this subject matter.

        OIG Reply: OIG considers this recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation showing that S/GAC has issued
        guidance on better signage highlighting the American people’s contribution to
        combatting HIV/AIDS and evidence that PEPFAR country teams are complying.
19
  For instance, Zambia had translated a radio program for people living with HIV/AIDS into seven local languages.
20
  American “Smart Power”: Diplomacy and Development are the Vanguard, Bureau of Public Affairs, May 4,
2009.

                                                       14 


                                             UNCLASSIFIED 

                                       UNCLASSIFIED 



                                    List of Recommendations
Recommendation 1. OIG recommends that the Regional Procurement Support Office in
Frankfurt, Germany, determine whether the balance of $5,213,502 in obligations remaining on
the nine contracts and task orders identified are still necessary and, if not, deobligate them.

Recommendation 2. OIG recommends that S/GAC create standard signage for all
PEPFAR-funded facilities to better highlight and display the American people’s contribution
towards efforts to globally combat HIV/AIDS (including text, size, and placement).




                                               15 


                                       UNCLASSIFIED 

                                              UNCLASSIFIED 



                                                                                                      Appendix A
                                        Scope and Methodology

        The Office of Inspector General’s (OIG) Audit Compliance and Followup Division
initiated this compliance audit to determine whether the Department of State (Department) had
made progress in implementing recommended corrective actions in addressing deficiencies
identified in the Department’s management of PEPFAR-funded overseas construction contracts.
Specifically, we (1) assessed all open recommendations to determine whether the Department
State had taken appropriate actions to address the problems and (2) assessed two
recommendations previously closed to ensure that the Department’s actions have corrected the
original deficiencies. Finally, during the course of the audit, we added a third objective
examining the signage affixed to PEPFAR-funded medical facilities to determine whether it
adequately identified the USG contribution and supported the Department’s diplomatic efforts.1

        OIG selected two of the closed recommendations to reexamine because they addressed
important PEPFAR construction deficiencies in (1) accounting for and transferring PEPFAR
properties to the host government and (2) performing and documenting required contract award
actions. The two closed recommendations we did not review dealt with developing interagency
agreements and legal authorities which were more germane to the overall PEPFAR program.

        The audit team selected three locations to perform fieldwork and testing: the Regional
Procurement Support Office (RPSO) in Frankfurt, Germany; the U.S. Embassy in Lusaka,
Zambia; and the U.S. Embassy in Dar es Salaam, Tanzania. The RPSO site was selected because
it provides contract management support for U.S. diplomatic and consular posts in Africa.
RPSO manages the entire contract administration life cycle from the soliciting bids, evaluating
proposals, processing purchase orders, monitoring contract progress, and closing out contracts
upon completion. Zambia and Tanzania were selected as case study countries because they were
responsible for executing the largest number of PEPFAR construction contracts (over $1 million)
for FYs 2012 and 2013, as shown in Table 1.




1
  While conducting site visits in Tanzania and Zambia, the OIG team noticed that most PEPFAR facilities lacked
signage that clearly indicated the U.S. Government’s role in the construction of the medical facility. Because better
signage supports the Department’s foreign policy objective of using “Smart Power” to improve health abroad to
reduce the risk of instability, OIG decided to add signage as a third objective from our original compliance followup
audit announcement.


                                                         16 


                                              UNCLASSIFIED 

                                                  UNCLASSIFIED


Table 1. PEPFAR FY 2012–2013 Construction Awards
                                                                                                      Number of
                                         FY 2012                           FY 2013                   Contracts Over
Country                           Contract Totals                   Contract Totals            Total  $1,000,000
Zambia                                $1,389,493                       $14,583,450       $15,972,943              6

Tanzania                               11,664,037                        1,592,194        13,256,231             3
Ethiopia                                5,298,741                        3,300,530         8,599,271             3
Uganda                                      3,901                        8,114,167         8,118,068             1
Kenya                                   7,026,980                                -         7,026,980             2
Botswana                                4,581,040                                -         4,581,040             2



United States                            5,540,396                       3,130,503         8,670,899             2
Tajikistan                               2,399,099                               -         2,399,099             1
Mozambique                               357,668                                    -       357,668              0
South Africa                             194,342                                    -      194,342               0
Belgium                                   63,542                                    -        63,542              0
Japan                                     57,048                                    -        57,048              0
Germany                                   24,064                                    -        24,064              0
United Kingdom                             8,435                                    -         8,435              0
Totals                               $38,608,786                      $30,720,844       $69,329,630             20

Source: OIG generated this table based on information provided by the Department.


        Additionally, OIG looked at RPSO actions with respect to 38 contracts that were
identified in a prior audit report (AUD/IP-12-03) as having inappropriate contingency costs
associated with the contracts. The audit report recommended that Frankfurt RPSO review all
existing PEPFAR construction contracts and reclaim any contingency costs inappropriately
included in the contracts as practicable per Federal Acquisition Regulation 31.205-7.

       The OIG audit team performed fieldwork from February to May 2014 at the Office of the
Global AIDS Coordinator (S/GAC) and at the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, in Washington, DC; at the RPSO in
Frankfurt, Germany; and at constructed/renovated health facilities in the capitals and outlying
provinces in Tanzania and Zambia.

        To assess actions taken to implement recommendations, OIG interviewed officials from
S/GAC, RPSO, and PEPFAR Tanzania and Zambia teams. OIG reviewed contract files at
RPSO, Tanzania, and Zambia for nine selected FY 2012-131 PEPFAR-funded construction
contracts. OIG conducted site visits to 14 different health facilities that were either currently
under construction or the facility was constructed in previous years. (Site locations were
selected in consultation with the PEPFAR country teams.) During these site visits, OIG met with
public health officers, building contractors, and government officials and conducted a visible

1
 Of the nine contracts, three were task orders that were awarded in 2012-2013 from contracts originally awarded in
FY 2009.

                                                             17 


                                                  UNCLASSIFIED 

                                       UNCLASSIFIED 



inspection of the facility to observe the quality of the construction and its present condition. OIG
also reviewed all compliance responses and supporting documentation provided by S/GAC to
OIG for the recommendations made in the prior two reports.

       This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that OIG plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for the findings and conclusions based on the
audit objectives. OIG believes that the evidence obtained provides a reasonable basis for the
findings and conclusions based on the audit objectives.

Review of Internal Controls

       OIG did not assess the adequacy of internal controls related to the area reviewed.

Use of Computer-Processed Data

Because accounting documentation could not be readily located, OIG obtained information from
computerized records. In combination with other audit work, OIG was able to verify that the
information obtained was of sufficient quality to support the recommendations and conclusions
of this report, and thus, accomplish its audit objectives.




                                                18 


                                       UNCLASSIFIED 

                                                 UNCLASSIFIED 



                                                                                                      Appendix B
                           Facilities Constructed With PEPFAR Funds

       Following is a list of facilities constructed with PEPFAR funds that the OIG team visited
in Tanzania and Zambia. We visited 11 facilities that opened between 2006 and 2012 (3 in
Tanzania and 8 in Zambia) and 3 on-going construction projects (1 in Tanzania and 2 in
Zambia).

Location                                                                     PEPFAR Health Facility   Facility Opened
Dar es Salaam, Tanzania                   National Headquarters and Zonal Blood Transfusion                     2006
                                                                         Center, Ilala District
Dar es Salaam, Tanzania                        Temeke Hospital TB/HIV Ward, Temeke District                     2010
Dar es Salaam, Tanzania                 Tandale Care and Treatment Clinic, Kinondoni District                   2008
Southern Province, Zambia                      Dambwa Compound Voluntary Counseling and                         2006
                                                                              Testing Center
Southern Province, Zambia               Livingstone Zambian Police Voluntary Counseling and                     2006
                                                                              Testing Center
Southern Province, Zambia                     Maramba Compound Voluntary Counseling and                         2006
                                                                              Testing Center


Southern Province, Zambia                          Livingstone General Hospital Pediatric Ward                  2009
Southern Province, Zambia                                Livingstone General Hospital TB Ward                   2009
Southern Province, Zambia                    Mukuni Village Voluntary Counseling and Testing                    2006
                                                                                      Center
Lusaka Province, Zambia                           Zambian Defense School of Health, Phase I                    2010
Lusaka Province, Zambia                         Zambian Defense Force HIV/AIDS Secretariat                     2012
Mtwara, Tanzania                                          Mkomanido Training Center, Masasi             Construction
                                                                                                          On-Going
Lusaka Province, Zambia                                        Defense School of Health Phase II        Construction
                                                                                                          On-Going
Southern Province, Zambia                                               Army School of Ordinance        Construction
                                                                                                          On-Going
Source: OIG generated this table based on information provided by the Department




                                                            19 


                                                 UNCLASSIFIED 

                                        UNCLASSIFIED 




                                                                                       Appendix C

                 Closed Recommendations Not Selected for Review
Note: OIG did not review the following recommendations during this compliance followup
audit.

Recommendation 1 from Audit Report AUD/IP-11-14. OIG recommends that the Office of
the U.S. Global AIDS Coordinator [S/GAC] develop an interagency memorandum of agreement
to address the PEPFAR [President’s Emergency Plan for AIDS Relief] overseas construction
projects that specifies all parties to the agreement; defines the purpose, background, and
objective of the agreement; clearly defines the roles and responsibilities of the agencies involved
for acquiring and administering construction projects; and provides for dispute resolution.

        Discussion: In its formal response to the audit report, S/GAC referred to general dispute
resolution provisions (both formal and informal), that if properly applied, should be sufficient to
address and resolve any financial or construction-related problems. However, S/GAC also took
additional steps and provided evidence that it promulgated a significant amount of detailed
guidance on administering construction projects. Specifically, S/GAC created a document
matrix that provided specific guidance pertaining to the construction and renovation of
HIV/AIDS infrastructure projects, including requisitioning funds; acquiring projects;
administering projects; accounting for properties; and transferring properties.

        Although OIG continues to believe that a formal interagency Memorandum of
Understanding (MOU) specific to PEPFAR construction projects would serve as a valuable
management tool in delineating the roles and responsibilities for agencies and in facilitating the
resolution of disputes, the intent of the recommendation has been met through the detailed
guidance produced by S/GAC for administering construction/renovation contracts.

       Status: Closed.

Recommendation 2 from Audit Report AUD/IP-11-14. OIG recommends that the Office of
the U.S. Global AIDS Coordinator discuss and seek resolution for the current legal dispute on
construction authority with senior level management within the U.S. Department of Health and
Human Services [(HHS)].

        Discussion: A longstanding legal dispute between the Department of State (Department)
and HHS related to contract authority for PEPFAR construction projects. The primary point of
contention between the two agencies was whether the authority to award contracts for PEPFAR
construction projects transfers with PEPFAR funds from the Department to Centers for Disease
Control and Prevention (CDC) or is retained by the Department. HHS believed that CDC, which
is an agency within HHS, does not have authority to award construction contracts overseas and
that this authority was not transferred to HHS with the PEPFAR funds. The Department
disagreed and believed HHS does have the authority to award construction contracts.

                                                20 


                                        UNCLASSIFIED 

                                      UNCLASSIFIED 




        In its formal response to the audit report, S/GAC disagreed with the recommendation
stating, “While State lawyers do not agree with the HHS legal view, we believe our alternative of
offering an alternative State mechanism is the more effective practical approach." So while the
Department does have the legal authority to allocate some or even all of its PEPFAR budget
authority to another Federal agency, such as HHS/CDC, the Department decided as a matter of
expediency to assume the role of implementing agency and maintain responsibility and control
for how the funds are expended. Based upon S/GAC’s actions making moot the need to resolve
the legal dispute with HHS, OIG considers the recommendation closed.

       Status: Closed.




                                               21 


                                      UNCLASSIFIED 

                                 UNCLASSIFIED 



                                                                                  Appendix D
          Office of the U.S. Global AIDS Coordinator Response

                                                      United States Department of State

                                                      Washington, D. C. 20520



MEMORANDUM                                            July 23, 2014

TO:          OIG/AUD - 1\orman P. Brown

FROM:        S/GAC -Ambassador Deborah Birx, MD~

SUBJECT: Response to the Report, Compliance Follow-up Audit ofDepartment
         ofState Actions to Address Weaknesses in the Ownership, Award,
         Administration, and Transfer of Overseas Construction Funded by the
         President's Emergency Planfor AIDS Relief

Thank you for the opportunity to review and comment on the July 2014 Draft
Office of Inspector General (OIG) Report. The Office of the U.S. Global AJDS
Coordinator (S/GAC) appreciates the OIG's efforts to recognize the challenges that
S/GAC faces when implementing construction overseas. General comments and
comments specific to the OIG recommendation are enclosed.

SIGAC agrees with Recommendation 2-- "that S/GAC create standard signage for
all PEPFAR-funded facilities to better highlight and display the American people's
contribution towards efforts to globally combat HIV/AIDS".

S/GAC appreciates the efforts that OIG expended conducting this review. Thank
you again for the opportunity to provide comments on the Draft Rep0rt. S/GAC
looks forward to continuing our collaborative efforts with the OIG in the future.

 If you have any further questions or would like to discuss any of the issues in more
                                                             [Redacted] (b) (6)
 detail, please feel free to contact Michael Benton at 202-663       or by email at
[Redacted] (b) (6)
                   @state.gov

Attachment: S/GAC Comments on July 2014 Office of Inspector General Draft
Report




                                         22 


                                 UNCLASSIFIED 

                                        UNCLASSIFIED 





  S/GAC COMMENTS ON JULY 2014 OFFICE OF INSPECTOR GENERAL DRAFT
                              REPORT

  COMPLIANCE FOLLOWUP AUDIT OF J)EPARTMENT OF STATE ACTIONS TO
ADDRESS WEAKNESSES IN THE OWNERSHIP, AWARD, ADMINISTRATION, AND
   TRANSJ'ER OF OVERSEAS CONSTRUCTION FUNDED BY THE PRESIDENT'S
               EMERGE.\TCY PLAN FOR AIDS RELIEF (PEFAR)


Background and Comments

We appreciate the opportunity to comment on this report and offer the following remarks.


S/GAC Views on Recommendation 2

Recommendation 2: OIG recommends that S/GAC create standard signage for all PEPFAR­
funded racilities to better highlight and display the /\merican people's contribution towards
efforts to globally combat HIV/AJDS

S/GAC agrees with this recommendation, and intends to issue additional guidance on this
subject matter.

Specific Comments on .July 2014 Draft Repo1·t Text

Recommend you replace the following:

On the first line of page 14 in the statement associated with Figure 6, replace "Livingstone" with
'·Lusaka.''




                                                 23 


                                        UNCLASSIFIED 

                                        UNCLASSIFIED 



Major Contributors to This Report

Naomi A. Snell, Director
Division of Audit Compliance Followup
Office of Audits

Patrick A. Dickriede
Office of Inspector General

Upeksha P. van der Merwe, Auditor
Division of Security and Intelligence
Office of Audits

Cristina G. Ward, Auditor
Division of Audit Compliance Followup
Office of Audits




                                              24 


                                        UNCLASSIFIED 

        UNCLASSIFIED 





 FRAUD, WASTE, ABUSE,


 OR MISMANAGEMENT


OF FEDERAL PROGRAMS 

   HURTS EVERYONE. 


         CONTACT THE
	
	
 OFFICE OF INSPECTOR GENERAL 

            HOTLINE
	
	
      TO REPORT ILLEGAL 

   OR WASTEFUL ACTIVITIES: 



         202-647-3320 

         800-409-9926 

      oighotline@state.gov 

          oig.state.gov 


   Office of Inspector General
	
	
    U.S. Department of State 

         P.O. Box 9778 

     Arlington, VA 22219 





        UNCLASSIFIED 

